No. _________
IN THE

Supreme Court of the United States
DOORDASH, INC.,

Petitioner,
v.
BRANDON CAMPBELL,

Respondent.
CERTIFICATE OF SERVICE
I hereby certify that I am a member in good standing of the bar of this Court and
that on this 9th day of August, 2021, I caused three copies of the Petition for a Writ of
Certiorari to be served by third-party commercial carrier on the counsel identified
below, and caused an electronic version to be transmitted to the counsel identified
below, pursuant to Rule 29.5 of the Rules of this Court. All parties required to be served
have been served.

Counsel for Respondent:
R. Rex Parris
Kitty K. Szeto
John M. Bickford
Ryan A. Crist
PARRIS LAW FIRM
43364 10th Street
West Lancaster, CA 93534
(661) 949-2595
rrex@parris.com
kitty@parris.com
jbickford@parris.com
rcrist@parris.com

/s/ Joshua S. Lipshutz
Joshua S. Lipshutz

